<html>
<title> - [H.A.S.C. No. 112-74]THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/11: PERSPECTIVES OF FORMER CHAIRMEN OF THE COMMITTEES ON ARMED SERVICES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-74]

 
                     THE FUTURE OF NATIONAL DEFENSE
                    AND THE U.S. MILITARY TEN YEARS
                   AFTER 9/11: PERSPECTIVES OF FORMER
                       CHAIRMEN OF THE COMMITTEES
                           ON ARMED SERVICES

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 12, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
71-445                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2641564966455355524e434a560845494b08">[email&#160;protected]</a>  
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     BETTY SUTTON, Ohio
BOBBY SCHILLING, Illinois            COLLEEN HANABUSA, Hawaii
JON RUNYAN, New Jersey               KATHLEEN C. HOCHUL, New York
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jenness Simler, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, October 12, 2011, The Future of National Defense and 
  the U.S. Military Ten Years After 9/11: Perspectives of Former 
  Chairmen of the Committees on Armed Services...................     1

Appendix:

Wednesday, October 12, 2011......................................    37
                              ----------                              

                      WEDNESDAY, OCTOBER 12, 2011
THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/
11: PERSPECTIVES OF FORMER CHAIRMEN OF THE COMMITTEES ON ARMED SERVICES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Hunter, Hon. Duncan L., Former Chairman, House Armed Services 
  Committee......................................................     4
Skelton, Hon. Ike, Former Chairman, House Armed Services 
  Committee......................................................     9
Warner, Hon. John, Former Chairman, Senate Armed Services 
  Committee......................................................    12

                                APPENDIX

Prepared Statements:

    Hunter, Hon. Duncan L........................................    44
    McKeon, Hon. Howard P. ``Buck''..............................    41
    Skelton, Hon. Ike............................................    52
    Smith, Hon. Adam.............................................    43
    Warner, Hon. John............................................    59

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/
11: PERSPECTIVES OF FORMER CHAIRMEN OF THE COMMITTEES ON ARMED SERVICES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, October 12, 2011.
    The committee met, pursuant to call, at 10:05 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The hearing will come to order.
    Good morning. The House Armed Services Committee meets to 
receive testimony today on ``The Future of National Defense and 
the U.S. Military Ten Years after 9/11: Perspectives of Former 
Chairmen of the Committees on Armed Services.'' We are very 
fortunate to have with us today Senator Warner from the other 
body. You know, I remember when he was over there, they used to 
do things over there. Nice to have him back.
    Mr. Warner. Thank you.
    The Chairman. Maybe you can just kind of swing by over 
there before you leave, give them a little prod?
    Mr. Warner. Yeah.
    The Chairman. I think the last count we have over 100 bills 
sitting over there waiting to be addressed to start jobs and a 
few other things.
    Mr. Warner. You are on your own.
    The Chairman. I am also really happy to see Chairman 
Hunter, who was my mentor from the day I got here, and Chairman 
Skelton, two guys that really worked hand in hand for many 
years. Both chaired this committee, and it is good to have them 
back.
    This hearing is part of our ongoing series to evaluate 
lessons learned since 9/11 and to apply those lessons to 
decisions we will soon be making about the future of our Force. 
We received perspectives of former military leaders from each 
of the Services, as well as outside experts. Today we will have 
the opportunity to view these issues through the lens of the 
leaders of the Legislative Branch.
    The individuals with us today in more ways than we can 
possibly imagine led the fight here on the Hill to ensure our 
warfighters got what they needed to defend this Nation and take 
care of their families, especially in the months following the 
attacks of September 11th, when it became clear that the 
procurement holiday of the 1990s had left gaps in our 
capabilities, the readiness was low, and that our Force was 
being stretched too thin. The chairmen of the Armed Services 
Committees ensured that not only Congress, but the Department 
of Defense and industry were doing their part to make it right 
for our Armed Forces.
    Unfortunately our successes in the Global War on Terror and 
in Iraq and Afghanistan are lulling our Nation into the false 
confidence of a September 10th mindset. Too many appear to 
believe that we can maintain a solid defense that is driven by 
budget choices, not strategic ones; that the threats we face 
will be reduced along with funding for national security.
    I am not arguing that the military can be held exempt from 
fiscal belt-tightening. Indeed, half a trillion dollars has 
been cut from the DOD [Department of Defense] already. The 
military has absorbed about half of the deficit reduction 
measures enacted to date, but these cuts have happened in 
advance of the development of a new strategy for national 
defense, and without any changes to the military's roles and 
missions.
    Even more concerning is that if the Joint Select Committee 
does not succeed in developing and passing another deficit-
reduction plan, an additional half a trillion dollars could be 
cut from our military automatically. It also remains to be seen 
whether or not additional cuts may be proposed by the 
Administration, even if the ``super committee'' [Joint Select 
Committee on Deficit Reduction] is successful. But all this 
talk about dollars doesn't trans well into actual impacts on 
the Force and risk to our Nation.
    I hope our witnesses today can help us understand the 
lessons we learned 10 years ago and give us recommendations 
about how we might avoid repeating the same mistakes. How can 
we make sure the DOD is a good steward of the taxpayers dollar 
without increasing the risk to our Armed Forces?
    The U.S. military is the modern era's pillar of American 
strength and values. In these difficult economic times, we 
recognize the struggle to bring fiscal discipline to our 
Nation, but it is imperative that we focus our fiscal restraint 
on the driver of the debt instead of the protector of our 
prosperity. With that in mind, I look forward to hearing from 
our witnesses today.
    I apologize, I am going have to leave for a HPSCI [House 
Permanent Select Committee on Intelligence] briefing. Our vice 
chair, Mac Thornberry, will take the chair, and I look 
forward--I will return as soon as I can for the questioning and 
learn what we can from these witnesses.
    With that I yield to our ranking member on the committee, 
Adam Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 41.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here, and in particular it is an honor to 
have two of our former chairmen of this committee here and a 
great honor to have a former chairman of the Senate Armed 
Services Committee as well. Senator Warner, Mr. Hunter and Mr. 
Skelton, welcome back.
    My formative years on this committee were spent under Mr. 
Hunter and Mr. Skelton, and I could not have had two better 
mentors to see how they run this committee. And it is a great 
testimony that you are back together to the bipartisanship of 
this committee that both of you upheld in fine standing, which 
I might also add Chairman McKeon has done an excellent job of 
as well. You know, we work together on this committee. We have 
differences, but I think more so than any other committee out 
here, we definitely see this as a bipartisan issue, try and 
make sure that we adequately provide for the national security 
of our Nation. It is an honor to serve on this committee, and I 
think all Members take it very seriously. It is great to see 
you both again.
    I thank the chairman for having this hearing and the series 
of hearings that we have had to discuss the future of our 
defense budget. Our country right now faces enormous challenges 
on the budget front, but we also continue to face national 
security threats, and I agree with the chairman that we cannot 
wish them away. We have had a number of successes over the 
course of the last decade in confronting Al Qaeda and dealing 
with the situation in Afghanistan, but those threats remain, 
and we have a world that is uncertain. We are uncertain of 
China's intentions in Asia. Iran and North Korea continue to be 
grave threats.
    We have reason to make sure that we maintain a strong 
national security posture, and cuts will impact that. As the 
chairman has mentioned, the debt ceiling agreement that was 
passed in August has already put us on a path to cut somewhere 
in the neighborhood of $500 billion out of the defense budget 
over the course of the next 10 years. The Pentagon is already 
planning for that. Secretary Panetta, who we will hear from I 
think it is tomorrow, gave a speech yesterday morning outlining 
their vision for how to implement those cuts. So it is not that 
Defense has not stepped up and offered reductions. It has. The 
question is what should those reductions be, and where do we go 
from here, what more might come at us?
    But at the same time, as I have said on this committee, we 
have to be mindful of our debt and deficit situation. The math 
is unrelenting. We are 40 percent out of whack on our budget. 
That means we are borrowing 40 percent of every dollar that we 
spend. That is unsustainable and devastating to the national 
security of this country.
    Now, it is my viewpoint that the debt ceiling agreement 
lumped all of that on the nonentitlement portion of the budget, 
of which defense is over half, and that the entire budget has 
to be part of the discussion. And, yes, though my colleagues to 
my right are sick of hearing me say this, revenue has to be 
part of the discussion as well.
    I think there are incredibly powerful arguments that have 
been made by the majority for the devastating impact of further 
cuts on national security. We must prevent that, but 
unfortunately the debt ceiling agreement puts us on the path to 
doing it unless we come up with something else. And again, the 
math is the math. Unless you want to cut entitlements by 
somewhere around a third, you have got to put revenue on the 
table. I think the importance of our national security needs is 
an argument for doing that, and I will continue to advocate 
very strongly for that, in part because of my belief that the 
national security budget has already been cut by as much as it 
can be, but also in part because there are other discretionary 
programs that are important to this country: Infrastructure, 
education, just to name a couple. They face those devastating 
cuts of sequestration as well. So I hope the committee can come 
together with the idea that we need to prevent sequestration.
    As one final little bit of sequestration, which is not 
widely understood, it is an across-the-board cut that is 
required. It takes away any discretion on behalf of the 
Department of Defense. They have to cut every single line by 
the same amount, and that is one of the most ridiculous ways to 
budget I can possibly imagine. But that is what happens if we 
don't come up with some agreement to find at least another $1.2 
trillion in deficit reduction.
    I will also say that the way we continue to do CRs 
[Continuing Resolutions] as the way to fund it also has a more 
profoundly devastating impact on our ability to budget than 
most people realize. I have heard people talking about the fact 
that we may not be able to get an appropriations bill this 
year, so the Department of Defense will once again have to live 
for months and months with a CR. A CR is not the same as having 
appropriated money. It makes it very, very difficult to plan 
and very, very difficult to do an efficient job of spending 
taxpayers' money.
    We need to make decisions. We need to put everything on the 
table and make a comprehensive decision for how to get the 
deficit under control long-term. No one is talking about making 
big, deep, traumatic cuts right now, this year in the middle of 
a recession; we are talking about putting a plan in place to 
have a reasonable 10-year effort to get the deficit under 
control, and we need do that. Defense is but one of many places 
that will be impacted in a devastating way if we don't.
    So I look forward to the testimony of our three esteemed 
witnesses on their expertise and experience sorely missed from 
this committee. We look forward to getting at least a little 
bit of it today to give us some guidance on where we should go 
and how we should make the right decisions going forward.
    I yield back. Thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 43.]
    Mr. Thornberry. [Presiding.] Thank the gentleman.
    Let me add my welcome to our distinguished witnesses. 
Without objection, any written statement you would like to 
submit will be made part of the record. And with that I would 
yield first to Chairman Hunter for any comments he would like 
to make.

  STATEMENT OF HON. DUNCAN L. HUNTER, FORMER CHAIRMAN, HOUSE 
                    ARMED SERVICES COMMITTEE

    Mr. Hunter. Thank you, and thanks to the Members of the 
committee for the opportunity for all of us to come back and 
give our views on where we stand today with respect to the 
security challenge and what the proposed budget cuts--the 
impact that they would have on security in the near term and 
the long term. And it is neat to see everybody. It is great be 
back and wonderful to see old friends. It is great to see our 
great staff members, who have made this committee work so 
effectively. And it is always good to be here with John Warner, 
my old colleague from the Senate who worked across the table 
with us for so many years putting together a defense package 
that served the country well; and also with Ike Skelton, one of 
the truly great Americans of all time, a guy that I knew for my 
entire congressional career, and just wonderful to be with him. 
So thanks for the homecoming. It has been good.
    Now, I have got a written statement for the record, but let 
me just go straight to the point here, because I think it is 
important to have lots of time for questions if you have them.
    First, I have looked at the proposed budget cuts that will 
occur under the Joint Committee's automatic pilot, if you will, 
if they don't find cuts elsewhere, and, in my opinion, the 
automatic budget cuts that are proposed by the Joint Committee 
will badly damage America's national security in the near term 
and in the long term. And let me explain why I think that is 
the case.
    You know, after World War II, when we had over 8 million 
people under arms, we, in the words of John Marshall, didn't 
simply demobilize. General Marshall said it was a route. We 
stacked arms. A couple of years later a third-rate country with 
a third-rate military pushed Americans down the Korean 
Peninsula and almost pushed us into the ocean until we 
established a Pusan perimeter and pushed back, ultimately 
weathered the intervention of the Communist Chinese, and 
established that stalemate that prevails today.
    We had a drawdown after Vietnam in which, as I recall, the 
Army was called hollow. We had 50 percent of our aircraft that 
were not fully mission capable, we had lots of ships that 
couldn't steam, and national security was in bad shape.
    We rebuilt national security in the 1980s, and in doing so, 
we stood up to the Soviet Union. In fact, I think one of the 
first things I did as a freshman on this committee was join Ike 
in approving the President's 12.6 percent pay increase for all 
military personnel, because in 1979 you had about 1,000 petty 
officers a month who were leaving the Navy because they 
couldn't feed their families on military pay.
    So we rebuilt national security, we brought down the Soviet 
Union, and at that point we went into a drawdown phase. And we 
went from 18 Army divisions, as Ronald Reagan walked out the 
door, to 14 Army divisions during the early years of the 1990s. 
We then went into a very devastating time in which we pulled 
the Army, for example, down to a little more than half of what 
it had been. We pulled it down from 18 divisions to 10 
divisions by the time the Administration in 2000 walked out the 
door.
    We had--and I recall this as the first procurement chairman 
and ultimately full committee chairman--we did an analysis on 
how much equipment we needed to buy each year to try to fill 
the gaps, and we were funding in the late years of the 1990s 
about half of what we needed, half the equipment that we 
needed. So we had that enormous drawdown, and even though 
Congress restored about $40 billion during the late 1990s, we 
had that enormous drawdown, and ultimately we came into 2000 
with a vastly reduced military.
    Now, we rebuilt to a large degree after 9/11, spurred by 9/
11, I might say, and we filled up some of those things that the 
former Chief of the Army called the ``holes in the yard,'' the 
equipment yard. We replenished some of that equipment. We 
reinvigorated our missile defense program.
    But at this point in this war, and I understand the 
American people are weary of war, you get weary of war, and 
this committee, I am sure, is weary of the long wars that we 
fought, but we won in Iraq. The Government in Iraq is holding, 
the military that we built from the ground up is holding, and 
we did that because we increased military end strength, we 
increased pay, we increased the people side of the defense 
budget, and we also put in place new modernization programs 
that are just now on the cusp of being fully fielded.
    At this point we are about ready to go into a historic 
drawdown if these proposed budget cuts occur that will be 
devastating to national security near-term and long-term.
    And, Mr. Chairman, let me know, I always hate to be cut off 
by chairmen, I have always hated that, but do let me know when 
I am close to my allotted time here. I don't want to----
    Mr. Thornberry. I think the committee is going to extend a 
great deal of discretion to our former distinguished 
colleagues.
    Mr. Hunter. Thank you, Mr. Chairman. Could you tell 
somebody to turn my blinking light off?
    Mr. Chairman, so let me talk about these cuts and what they 
do in the context of the world that we live in today.
    First, we are still fighting the war in Afghanistan. It is 
a difficult, complex war, but a winnable war. And the war 
against terrorism is not over. Beyond that, we have a neighbor 
to Iraq, which, having failed to intervene successfully in the 
Iraq war, the Americans having won the Iraq war, even though 
they killed a number of Americans with their intervention, the 
special groups with explosively formed projectiles, and with 
their intelligence aid to the other side, they are proceeding 
apace with the development of a nuclear weapon.
    Now, here is what we know about Iran in shorthand. The 
efforts by the West, by the Allies, to stop the enrichment of 
nuclear weapons material have failed. The path of the last 5 or 
6 years is littered with failed sanctions because the 
meaningful sanctions have been invariably blunted by China and 
Russia. The 1,500 engineers, Iranian engineers, that have been 
trained by the Russians form now a permanent cadre, if you 
will, for the development of nuclear systems.
    You know, if you go to a shooting gallery, you see the big 
ducks go by first, and they are easy to hit, and then you see 
the small ducks go by, and they are tough to hit. The big ducks 
are almost all gone with respect to Iran, because the big 
operations that are visible, that you can see with overhead 
surveillance, that you can assess, that is the huge stockpiles 
of material that needs to be refined until it is weapons grade 
and can be used in a nuclear device. Getting to the 5 percent 
refinement point with the centrifuges, the thousands of 
centrifuges that Iran has in places like Natanz, it is a big, 
visible operation, but it is shortly going to be over, and the 
smaller work that can be done in clandestine sites, which are 
very difficult to see with National Technical Means and very 
difficult to assess, will finish up that work.
    So the United States is nearing a moment of truth with 
respect to Iran. And the Iran has followed the model, I think, 
of the North Koreans, whom they have observed very closely, and 
that is to talk and build, and wrangle and build, and lie and 
build until you have a nuclear device. I think that is the path 
that they are taking.
    And, of course, the Soviet Union, having been disassembled, 
leaves a residue of a strong strategic core in Russia, which, 
while the intent is not as ambitious or as aggressive as it was 
in the past, nonetheless you have a very strong strategic array 
of nuclear-tipped systems which have to be considered by 
American defense planners.
    Now let me go to the big picture, the final picture, and, I 
think, the primary problem and defense challenge that the 
United States is going to have: China. China right now is 
surging its national security capability not necessarily in 
numbers, but in capability, the capability to kill Americans 
should we have a Taiwan Straits scenario or another scenario.
    The Chinese have focused heavily on being able to blunt the 
United States Navy should it try to intervene in a Taiwan 
scenario or something similar and, in my estimation, they don't 
intend do that with a classic naval-on-naval engagement. They 
intend to use land-based ballistic missiles with antiship 
guidance systems where they can destroy the American fleet, or 
a good part of it, including aircraft carriers, 500, 600, 700 
miles out from the Taiwan Straits. And if you look at the 
ballistic missiles that they are developing today with antiship 
capability, that is precisely the range that they have 
attributed to and built into these systems.
    The Chinese also are building a high-end, multirole 
fighter. They are building about 100 medium-range ballistic 
missiles a year, which are staged and packed in the areas that 
can reach Taiwan. In fact, if we look at all the indicia that 
we used to look at when we try to decide whether they were 
going to at some point hit Taiwan, a lot of those boxes have 
now been checked, and they have done those things.
    Now, the problem, the challenge with China goes not just to 
what they have, but to their ability. I am always reminded of 
the legendary statement by a Japanese admiral shortly after 
Pearl Harbor in which he told his colleagues, at some point the 
Americans will defeat us and overwhelm us with their industrial 
base. A great part of the American industrial base now resides 
in China, and while China isn't churning out submarines at a 
high rate this year, even though they have turned out as many 
as 7 submarines in 2004 and 7 submarines, attack submarines, in 
2005, and, as I understand, a fairly large number in the last 
14 months, they have the ability to surge this big industrial 
base, especially their shipbuilding base, their domestic 
shipbuilding base, pivot that base into a warship-building 
base, and far exceed the capability of the United States to 
quickly build a fleet.
    The Chinese are also pushing very hard in very important 
areas, high-leverage areas. Along with their submarine 
capability, high-end fighters, they are also working very hard 
in the area of electronic warfare. They want to neutralize 
American electronic warfare and our capabilities that are 
dependent on our electronic capability. They understand that, 
and they understand the massive leverage that they get if they 
develop an ability to neutralize precision weapons. They have 
watched the effect of precision weapons. They really came into 
their own in Iraq. In the first Gulf war, about 10 percent of 
our weapons were precision weapons. They knocked out about 40 
percent of the targets, as I recall. About 60 percent of our 
weapons were precision weapons in this last war, and they were 
devastating, obviously. We took out many of Saddam Hussein's 
armor formations long before the Army and the Marine units came 
within range of those systems. The Chinese watched that, and 
they want to be able to neutralize precision-weapon capability.
    They also want to be able to dominate space, and for those 
Members of this committee or Congress who would like to keep 
space a benign environment, it is too late. The Chinese 
understand the importance of space, and they are developing 
systems to be able to control and dominate space. It was 2007, 
I believe, when they shot down one of their own target 
satellites and proved an incipient ASAT [Anti-satellite] 
capability.
    So China has a huge mobilization capability that will be 
very difficult for the United States to match because a large 
part of our industrial base now belongs to them. At the same 
time they have a lot of cash, and, for example, when they 
commission submarines, they buy Kilos. They not only produce 
submarines, they buy Kilo submarines from the Russians along 
with Sovremenny-class missile cruisers because they have ready 
cash, a lot of which came from the United States.
    I would predict, Mr. Chairman, looking at the budget that 
you have here, at a time when the Navy needs to meet these 
threats, they need to meet the missile threat to be able to 
keep the Navy from being so vulnerable that it can't enter 
certain parts of the Western Pacific, that takes a lot of 
money. This budget, if these budget cuts of approximately $1 
trillion through 2021 go through, the Navy will not be able to 
do what it takes to defend itself in an exposed environment.
    If you add to that the massive problems that the Navy has 
in other areas, the 288 ships that are spread very thin, the 
relatively small submarine force that we have now when a lot of 
Joint Chief studies have said we need close to 100 attack boats 
and we have got 50 or less, the Navy's problems right now in 
the face of a burgeoning Chinese industrial base and military 
capability are immense. If we as a government make these cuts, 
we will deprive the U.S. Navy of a future in the Western 
Pacific where it is a dominant force, and where it has a strong 
envelope of security over those Navy task forces that go out 
and deploy in those regions. And I would predict that this 
budget starts us on a road in which China by 2020 will be the 
dominant force in the Western Pacific, if they want to be. If 
they surge their warship production, with the declining road 
that this puts us on with respect to naval vessels and 
personnel and technology, they will be the dominant force in 
the Western Pacific.
    Mr. Chairman, the gentleman to my left, and as well as the 
gentleman to my right, but especially the gentleman to my left, 
was one of those Americans who--you know, the great thing about 
this committee is you find common ground, Democrats and 
Republicans, and probably nobody did more to work on ensuring 
that the Army end strength was increased than Ike Skelton. And 
I will leave the comments with respect to the people side, of 
what this does on the people side, to him and to Senator 
Warner.
    Let me just finish with this. Before this Government and 
this Congress votes to make these massive cuts on defense, they 
should ask this question: Has the world become a safer place? 
Another question: Is the war against terrorists over? Another 
question: Does it still make sense to shoot down incoming 
missiles? Because that is important, and these cuts will 
devastate the missile defense program. That is the ability to 
stop a fast-moving missile or a slow-moving missile from coming 
in and hitting either your troops in theater, your ships at 
sea, your allies, or your population here in the United States. 
Is defending against incoming missiles now a bad idea? Because 
this budget will devastate our missile defense program.
    And finally, what is the most important obligation that we 
have to the American people as a government? You must ask 
yourself that question. I have always thought it was to provide 
them with security. And the first thing that we should take 
care of, and especially in this era, is national security and 
then work out the rest of the budget exercise after we have 
determined what it takes to defend America.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 44.]
    Mr. Thornberry. Thank the gentleman.
    Chairman Skelton.

  STATEMENT OF HON. IKE SKELTON, FORMER CHAIRMAN, HOUSE ARMED 
                       SERVICES COMMITTEE

    Mr. Skelton. Mr. Chairman, Ranking Member Smith, Members of 
the Armed Services Committee, it is a signal honor to return to 
this Chamber where I served three decades in support of our men 
and women in uniform to discuss a matter of great importance, 
whether the United States will continue to have the finest 
military force in history.
    It is a special honor to be with my long-standing friend 
Duncan Hunter and my long-standing Senate compatriot Senator 
Warner. It is a real thrill to join them today. It is 
especially good to see my successor Mrs. Hartzler carrying the 
Missouri mantle as we move forward. So thank you again for the 
opportunity to be with you.
    I am deeply concerned with the prospect of cuts to our 
defense budget while our sons and our daughters are still at 
work in Iraq and Afghanistan and still fighting Al Qaeda around 
the globe. Our pilots are often younger than the planes they 
fly. Our Navy is not growing even as China builds a fleet that 
may threaten our ability to preserve freedom of navigation in 
the Western Pacific, and yet significant cuts are being 
contemplated to our defense. In fact, the Budget Control Act 
could lead to defense cuts that would be downright devastating.
    I concur with the past statements of Admiral Mullen and 
Secretary Panetta that the cuts to the defense budget that 
could occur under sequestration would imperil our Nation. 
Should sequestration cuts happen, in 10 years our country will 
be relegated to the sidelines of history.
    Congress has the sole power to raise and maintain our 
military under Article I, Section 8 of our Constitution. Thus 
my message to Congress is don't scuttle the American Armed 
Forces. Our military is the best ever. I implore Congress to 
pursue cuts to the defense budget with the utmost care. I 
recommend to the committee the report of ``Hard Choices'' 
released by the Center for a New American Security, where I 
serve on the board of advisors. This report outlines some of 
the significant consequences of cuts on American combat power. 
I echo the warnings of this report that budget cuts beyond the 
$480 billion already designated will endanger our national 
security.
    Cuts of this magnitude will jeopardize our ability to 
uphold our vital interests. Our future military must have the 
capability to deter potential aggressors and quickly and 
decisively defeat any direct threats. This means maintaining a 
strong ground force that can defeat the Taliban in Afghanistan 
and then transfer security responsibility to our Afghan 
partners. Yet any responsible defense budget must also 
prioritize the Navy and the Air Force. This is especially 
important in South and East Asia where rising powers such as 
China and India increasingly serve as fulcrums of global 
economic and political power. They can serve to bolster or 
challenge the security of global communion.
    For this reason the United States cannot degrade our naval 
and air capabilities. Cuts to the Navy and Air Force will limit 
our power projection capability, make our allies and partners 
question our commitments to them, and give China a free hand in 
the Western Pacific.
    The Army and Marines are also critical for this theater. 
The ground forces must support our Asian allies, improving 
American ties with those countries and discouraging China from 
bullying them.
    The new strategic situation means that in the spirit of 
Goldwater-Nichols, which had its genesis in this committee, we 
must embrace a joint vision for our future military. An 
interdependent military will more effectively protect our 
national interests through greater cooperation, thereby making 
more intelligent battlefield decisions.
    Already we have seen past attempts at this policy bear 
fruit. The Navy and the Air Force have made major strides 
through their evolving air-sea battle concept. Any future 
strategic concept must envision how a combined arms approach on 
air, sea and land will deter threats and defeat them if 
deterrence fails.
    Significant defense cuts could also endanger the vitality 
of our Services by compromising our ability to keep and train 
excellent officers, especially if personnel cuts degrade our 
officer-training institution. The strength of the U.S. military 
flows from the dedication and skill of our All-Volunteer Force. 
Indeed, the new defense budget must maintain our Nation's 
security by keeping the profession of arms professional.
    The American military's most important edge over our 
adversaries comes from the unparalleled professionalism and 
training of our men and women; however, this edge is fragile. 
When just over 50 percent of service academy graduates remain 
in the service after 10 years, our military loses its best and 
brightest. We must combat this by incentivizing retention of 
officers in the military. The Quadrennial Defense Review 
Independent Panel last year recommended two new bonuses for 
high-caliber soldiers, regardless of rank, and reforming our 
up-or-out system. By completing these imperative reforms, we 
will significantly improve the quality of our officer corps.
    We must complement these reforms by continuing our 
commitment to our professional military education. In the words 
of Admiral James Stavridis, we will prevail by outthinking the 
enemy. Our military service academies and the ROTC [Reserve 
Officers' Training Corps] programs are the best in the world, 
yet learning must continue as soldiers remain in the service. 
Warriors matching the strength of a Spartan hoplite, the 
flexibility of a Roman legionnaire, and the brilliant tactical 
mind of a Hannibal or Scipio are commissioned every year. As we 
face new domains of warfare in space and in cyberspace, 
officers who understand the past and anticipate the future will 
be well prepared to adapt the world's finest military to new 
ways of war.
    Deep defense cuts could endanger professional military 
education programs needed to prepare officers and enlisted 
personnel for this future. If the military hopes to adapt to 
the ever-changing nature of warfare, we must commit fully to 
funding professional military education and providing 
scholarships and support to those individuals pursuing higher 
education. Doing so will broaden the expertise of soldiers and 
prepare men and women for the threats of the future. Doing 
otherwise will turn our military into a profoundly moribund 
organization.
    Any defense budget must also not break faith with the men 
and the women and the families who comprise our All-Volunteer 
Force. We must honor the sacrifices of our soldiers and their 
families by preserving their hard-earned medical pay and 
retirement benefits.
    We also must ensure that we provide the resources to 
confront a lethal crisis affecting our military: suicide. In 
light of the rising suicides since 2001, especially amongst the 
Army and Marines who served so faithfully in Iraq and 
Afghanistan, we must continue to pursue innovative ways to 
ensure mental wellness in the armed services.
    I would like to conclude by emphasizing how important it is 
to get this right. It is no longer a question of if, but when 
the cuts will fall. Already the Department of Defense is 
looking at cuts of about $489 billion over the next 10 years. 
Our future force must be able to quickly defeat threats all 
over the world and to respond properly to the growing 
importance of Asia. Our Congress must remain vigilant that 
budget cuts do not irreparably damage our military forces. It 
must fight to preserve the education, training and health care 
that make our military the best in the world. We must not break 
faith with those who have sacrificed so much over the past 
decade.
    Again, thank you for the opportunity to return to this 
Chamber and to say a word on behalf of the young men and young 
women in uniform.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 52.]
    Mr. Thornberry. Thank you.
    Senator Warner.

 STATEMENT OF HON. JOHN WARNER, FORMER CHAIRMAN, SENATE ARMED 
                       SERVICES COMMITTEE

    Mr. Warner. Thank you very much, Mr. Chairman. I am deeply 
honored to be here. I again thank the chairman and ranking 
member and others who have found the time to come and attend.
    My two distinguished colleagues and dear, dear friends of 
many years, we have worked together in this room and in rooms 
throughout the Capitol complex to resolve problems, and here we 
are today to try and give you a little advice.
    Well, my first advice is I should be brief, because I am 
anxious to respond to questions, and I defer to the excellent 
summary of the world situation given by my good friend here 
from California. And then from the heartland of America, Harry 
Truman's land, Ike Skelton has talked about a subject I will 
touch on, and that is the All-Volunteer Force.
    I submitted a statement. It is short, it is of no great 
consequence. It is sort of a few notes from the heart, but what 
I felt.
    But I would like to say a personal thing. I looked around 
this morning at these portraits and reminded myself that I have 
been before this committee, this is my 41st year. I started 
with those two gentlemen over there as a youngster, Under 
Secretary of the Navy at that time, and with the exception of 
five short races for the Senate, I have been associated with 
Congress and working with the Armed Services Committee of the 
Senate and the House for certainly the 30 years that I finished 
in the Senate and the 5 years that I was in the Pentagon and 
the Navy Secretariat.
    But what I thought I would do today is first commend the 
staff and the Members for having this series of hearings. I 
have got to say to myself, why didn't I do something like this 
at difficult times? Thanks to Bob Simmons and Katie Sendak, I 
read every one of the statements of the witnesses who preceded 
this here, and I learned quite a bit. They were beautifully 
prepared statements. I wish I had spent a little more time on 
my very brief statement. But nevertheless, the hearing records 
will be there for all to see, and I hope somehow you put them 
together, because they are a very valuable resource as the 
Congress of the United States heads towards what I believe will 
be one of the greatest achievements they have ever had.
    I have not lost confidence in our Congress, our Senate, our 
House to work together. Both the chairman and ranking member in 
their opening comments referred to that magical word 
``bipartisan.'' The three of us saw it year after year with 
each bill that we had, and we never once failed to get a bill 
through that was bipartisan and signed by the sequence of 
Presidents. This Congress, I am confident, will achieve the 
same.
    However, my colleagues have spoken to the draconian threat 
of the sequester procedure and the special committee and the 
like. The only prediction I make today, is that will not 
happen, and it will not happen for the reason that the 
Committees of the Armed Services and the respective 
Appropriations Committees on armed services will not let that 
happen, because you understand the severity of the issues as 
they relate to the men and women of the Armed Forces.
    I sat here looking at that recitation from the Congress of 
the United States--excuse me, the Constitution, reminding 
Congress and the President, which constitute the Government 
together with our judiciary, it is the Federal Government's 
responsibility, national defense, no one else. It is the 
Federal Government. And these two committees, House and Senate, 
and the appropriators are the immediate ones responsible to see 
that this draconian chapter of a budget would not happen with 
$500 billion more being extracted from the Department of 
Defense current and outyear budgets. It must not happen.
    I want to also refer to the first thing I wanted to say in 
my statement was the All-Volunteer Force. I was in the Pentagon 
in the years 1969 to 1974 when the concept of that came about, 
and we recognized the need to do it. And when it passed, it was 
viewed that Congress had dumped onto the military the biggest 
gamble we had ever taken. But the military leadership at that 
time, and progressively since that period, have strengthened 
that all-voluntary concept. That is the very backbone of all of 
our defense. And every decision that this committee and others 
make in the context of this budget, you must keep foremost in 
mind the essential need to maintain that All-Volunteer Force.
    I was Secretary of the Navy during Vietnam. I saw the 
difficulties that we encountered with the draft, the American 
public turning against colleagues, turning against those in 
uniform as they came back from performing their duties on that 
frightful battlefield, which laid a heavy toll on our men and 
women and their families. Now, bear in mind that it is this 
committee and that in the Senate that must make sure that that 
doesn't happen again.
    Since that period the Armed Forces have continually, with 
strong leadership, be it from the generals and admirals or the 
privates and sailors, grown to where today they are respected 
more than any other segment of our society. They did it by 
their own sweat of their brow, their own sacrifice, their own 
ability to do with what Congress had provided and do it 
brilliantly.
    Also we cannot look at this situation in the context of the 
United States alone. Our Nation stands like a beacon to the 
free world. We are viewed upon in various ways, but the record 
will be clear we, the United States, do not desire to dominate 
or take anyone else's land or property. We are there solely to 
help preserve freedom for those who will fight with us to do 
so. And in that context if we were to face this draconian 
budget cut, it would send a signal, like the old days in the 
Navy that I knew, we used to flash this signal to maintain 
electronic silence. That signal would be flashed across the 
world: The United States is beginning to withdraw. That we 
cannot do.
    So I say to you the cuts in defense--and I will say right 
now we have taken--that is ``we'' collectively, the Department 
of Defense under the brilliant leadership of Bob Gates and Leon 
Panetta, and I have known those two fine men and worked with 
them for many years--we have taken a significant number of 
those cuts. But for symbolic reasons and other reasons, we 
cannot now say, in this current challenge to find more, that 
defense is off the table. I would not suggest we use that 
phrase. I suggest we use the depth of understanding in this 
committee to explain to your colleagues why certain cuts cannot 
be made against the defense. Some possibly can be, and we will 
participate the defense in somewhat meeting these obligations 
that must be met to avoid that draconian $500 billion. But it 
is you, individually, singly and as a committee, that is the 
last bulwark to protect this.
    So I just conclude I remain confident in Congress. Preserve 
that All-Volunteer Force, and the Nation will survive and 
continue to be a very strong, stabilizing force. If we were not 
continued to be viewed as a strong, stabilizing force, it could 
well be the incentive for other nations to start a race of 
armament and a race toward the ultimate weapons, weapons of 
mass destruction, including nuclear weapons. We are the 
stabilizer. We must remain so in being true to our men and 
women in the Armed Forces and their families. I thank you.
    [The prepared statement of Mr. Warner can be found in the 
Appendix on page 59.]
    The Chairman. [Presiding.] Thank you very much.
    I would like to acknowledge the presence of another former 
Member, longtime stalwart on the committee, Jimmy Saxton of New 
Jersey. Happy to have you here.
    We have kind of a unique opportunity with former chairman 
Duncan Hunter and Duncan Hunter, Jr., here. I know you spent 
all night preparing questions for your dad. I will yield my 
time to Duncan at this time.
    Mr. Hunter of California. Thanks, Mr. Chairman. I was 
hoping we could put him under oath first. I have got some 
questions about my childhood I would like to bring up right 
now.
    Thanks, Mr. Chairman, and I just want to say it is great to 
be here, it is a humbling experience to be here. And to my dad, 
it is kind of sad actually. I wish you would have stayed. Your 
superior knowledge and your take on this stuff would be much 
appreciated right now. We would like to have you around in a 
think tank or something instead of out hunting elk in Idaho, in 
Colorado, in Wyoming and in New Mexico and whatever else you 
are doing.
    Mr. Hunter. The Hunters are a big family, you know
    Mr. Hunter of California. They are a big family, that is 
true.
    I would like to ask the panel, with your experience coming 
pre or, you know, during the Cold War in the 1980s, when Dad 
was elected in 1980--Ike, I don't know when you were elected. 
The same? 1980, 1982.
    Mr. Skelton. 1976.
    Mr. Hunter of California. That is the year I was born. So 
coming from that experience----
    Mr. Skelton. You didn't have to say that.
    Mr. Hunter of California. I am sorry.
    Coming from that experience, just the breadth of knowledge 
and what you have seen, I would like you to kind of put these 
cuts in perspective for us. Because Presidents come and go. You 
gentlemen have been here a long time, and you have a lot of 
perspective. I would like you to just share that perspective 
with us. Thank you.
    Mr. Skelton. I remember when I first came to Congress, it 
must have been 1978, I went down to Fort Bragg and was with 
some young, relatively young, troops, and comparing what I saw 
then, the caliber and the training, to what I see now at Fort 
Leonard Wood in Missouri and other Army posts and Marine bases 
in training, it is night and day. We then did not have a 
military that can compare to what we have today.
    Same year I went on an overnight visit on the USS Saratoga, 
which, of course, is now out of commission, and I met with a 
group of Missouri sailors after the dinner, roomful of them, 
and all of them were so discouraged, they were going to get out 
of the Navy, except one, who had been in some 19 years, who was 
going to stick it out another year. And the morale that I heard 
and witnessed that evening aboard that ship was, frankly, very 
discouraging.
    In more recent years I have spent time aboard ships, on 
Navy bases with young men, young women all across the training 
spectrum, as well as in Iraq and Afghanistan. They are good. 
They are well-trained, their attitude is positive, they 
understand duty. And I am convinced though it is a small group 
of young men and young women--at any one time only one half of 
1 percent of Americans are in uniform--but I am convinced that 
this group of young folks will return and make a great 
difference to the future of America. You are one of them. And I 
think that you will see, though they are small in numbers, a 
growing great generation come from them, because they 
understand duty, they understand patriotism, and they 
understand what makes America work.
    That is why we can't lose what we have today. They are the 
best I have seen. They are good. Whether it be a trainee or 
whether it be a four-star admiral, they are very, very good at 
what they do.
    Barbara Tuchman wrote a book, the historian, entitled, The 
March of Folly, and each chapter was about how a country made 
decisions that were contrary to their own vital interests. 
Should sequestration come to pass and our military be 
devastated, as we have predicted, another chapter could be 
added to that book. This is serious business.
    Mr. Hunter. I would say to the gentleman from San Diego----
    Mr. Hunter of California. Distinguished gentleman.
    Mr. Hunter. Distinguished gentleman from San Diego. I am in 
a familiar position being grilled by you, but it is really 
great to answer that question because you are part of the 
answer.
    And, you know, when I came in in 1980, one thing that 
everyone arrives at when they come into this body, into this 
committee, and they have a relationship with lots of folks in 
the military, they get to know the military, we make trips to 
the bases, we meet with lots of them, lots of folks who have 
done extraordinary things, comparing that era to this era, 
which I think is part of your question, is I have always been 
impressed with the sameness.
    When I say ``the sameness,'' I am reminded of that book, 
The Bridges at Toko-Ri, by James Michener, when, when the hero 
didn't come back--and I forget who played him in the movie--the 
captain of the ship stood on the deck of this carrier and said, 
Where does America get such men who fly off these tiny aircraft 
carriers, go into a difficult combat situation, and then try--
those that survive--try to find that carrier somewhere at sea?
    And then he said or he concluded with the thought that 
these people come from America's cities and villages and towns, 
and somehow they come in with this incredible devotion to duty, 
and they preserve our country and preserve our freedom. And I 
have always thought about that, because in 1980, when I came in 
and I met these wonderful people who make the United States 
work, make the United States military work, I always remembered 
that line, because they are still coming.
    And I know Ike and I, and I am sure John, has had the same 
experience, and all of us and all of you in the committee have 
gone out into the warfighting theaters many times. When you 
meet these people, you meet people like J.A. Lamkin, the medic 
who alternately killed Al Qaeda and carried--performed an 
operation on his back in a firefight in--I believe it was in 
Baghdad, and then carried his wounded man down three flights of 
stairs, finished off a couple more enemy personnel, and finally 
successfully medevac'ed him; or Sergeant First Class Alwyn 
Cashe, who extracted his men from his Bradley who were burning, 
who were on fire after a fuel cell had exploded in an ambush, 
and he himself was burning, and continued to extract them until 
he couldn't move anymore; and the people that we know, and, 
Duncan, the people that you know, and the great young marines 
that you have brought to our house who have this sense of duty 
to our country.
    And today they have something else, and that is something 
that Ike touched on and John touched on, and that is this: Many 
of the people who served in these warfighting theaters over the 
last 10 years are what I would call old hands. They have done 
two, three, and four tours, and I am talking about whether the 
Marines, the Army, the ground forces, but also the Air Force 
and the Navy, these are people who know how to make the 
military work and know how to win wars, and they have a 
creativity, an innovative capability, and a genius, and we are 
going to lose a lot of those people.
    We are going to lose colonels like Joe L'Etoile, who took 
2nd Battalion, 7th Marines into that dangerous area called the 
Zydon and turned that around, cleansed it of Al Qaeda by 
alternately being a brilliant warfighter and by getting the 
tribes on his side; guys like John Kelly, who is now the Deputy 
for the Secretary, who, when the widows of Anbar Province were 
destitute, got them milk cows so that they could have a little 
income, and it gave a benefit on both ends, and it brought the 
tribes closer together to us; guys like Paul Kennedy, who 
worked as a liaison here and then commanded 2nd Battalion, 4th 
Marines, and the day after his battalion had killed 300 
insurgents in the battle of Ramadi, he held medical open house 
in the soccer stadium in Ramadi for the old people and the 
children and started to divide the insurgency from the tribes 
of Anbar Province.
    The same type of operations, those same counterinsurgency 
geniuses are plying their trade in Afghanistan today. Those are 
the old hands. Those are those colonels and lieutenant colonels 
who may never become generals, they may or may not, but they 
have the ability to win wars. They are creative, they are 
smart, they have enormous experience, and under these massive 
budget cuts, a lot of that great talent is going to be 
jettisoned.
    Going back to 1980, I would say, that is--I was always 
impressed first and foremost with the dedication and the 
capability of our people. It has never been better than it is 
today, and we are in danger right now of losing it.
    And so I would say to my son who joined the Marines, unlike 
my other son who joined the Army like me, whom I just left up 
at Fort Lewis and came back with the 4th Stryker Brigade, I had 
a little bit of that understanding the day that you quit your 
job and joined the Marines the day after 9/11 and deployed.
    So this is a massive challenge for us is to keep this 
talent, and Ike has talked about it, and John has talked about 
it. We are on the verge of losing enormous talent that will 
never be recovered once it is gone. Let us not do it.
    Mr. Warner. The two colleagues to my left have covered 
beautifully, better than I could, most of your question, Mr. 
Hunter.
    By the way, Semper Fi. You made the right choice. Marine 
Corps structured me and laid a foundation which enabled me. I 
am everlastingly grateful to that and the GI [Government Issue] 
Bill for what my country did for me, and I tried in my years in 
Congress to repay that debt.
    But I am going to take a different segment of your 
question, and that is the magnificence of the warfighters they 
have described, but the warfighters have got to have in their 
hands the most modern, the most high-tech, the most advanced 
weapons obtainable, because we are fighting in situations where 
low-tech weapons are trying to be used to neuter high-tech 
weapons, and it has been successful, you see with the roadside 
bombs. No matter what amount of money and how hard we worked on 
that issue, it is still a mean, dirty, threatening issue, that 
type of ordnance.
    But this goes to the acquisition process. I came to 
Congress in 1979, essentially we were all here in one block 
together, and I learned about that acquisition progress--
process and how it takes really 10 years to develop and build 
and test and so forth the weaponry that the forward-deployed 
troops have today, and we have got to maintain a continuity of 
that modernization.
    Cuts will be made, I am certain, to the programs, but that 
is where the wisdom of this committee comes in to make sure 
that those cuts are ones that will not, 10 years from now, 
leave that force that we will have, hopefully composed of the 
same brilliant men and women of the All-Volunteer Force that we 
have today--that they will have the weapons in order to deal 
with the array of challenges. Many of those challenges we 
cannot foresee today that will face our troops. Remember, that 
acquisition process has to have continuity and stability. Cuts 
will have to be made in some, but others have allowed to go 
forward to equip our troops for the future.
    Mr. Hunter of California. Thank the distinguished panel, 
and thank you, Mr. Chairman, for your indulgence.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I want to ask about the acquisition process, just dive down 
into that piece. You gentlemen have all had great experience 
with dealing with it.
    We have not had a good decade when it comes to the 
acquisition process. A fair number of programs have gone way 
over budget. A number of others have turned out not to work and 
had to have been cancelled.
    Without getting into my long-winded speech about the 
challenges here, I will just say that I think we need to be 
more flexible in terms of buying technology that is already out 
there and available and get off of so many programs of record 
that start us down the path of working forever on something 
that may or may not work.
    But I am curious on your thoughts when we look to sort of 
get more out of the money we have spent. I mean, you can look 
back at the last decade and easily get up to $50-, maybe even 
$100 billion that we all wish we had back, and given where we 
are at right now, that is truly painful. Based on your 
experiences, what do we need to do going forward to have a 
better acquisition procurement process? And I will leave it to 
you in terms of what order. Well, Senator Warner, why don't you 
give us your take first, and we will work our way down.
    Mr. Warner. Well, thank you, Mr. Chairman.
    Yes, indeed, I have had the acquisition process from both 
sides, working in the Pentagon and then coming to Congress, but 
I will have to be blunt and say the buck stops on your desk. 
You have got to exercise stronger oversight. You have got to 
put in place laws like Nunn-McCurdy and others to deter the 
very thing that you say.
    You can point fingers, you can look at tragic cases, but 
you cannot stifle innovation. You have got to take a measure of 
risk exploring new technology, some of which will fail, but at 
the same time when you do decide to go forward with a program, 
give it stability, give it continuity, but have oversight, and 
do not fear the threat to cancel that contract if the case 
merits it.
    Mr. Hunter. Thank you, Mr. Smith.
    Let me add to John's statement a few facts. One is that one 
thing that this committee came up with was an ability to quick-
field critical systems on the battlefield, so one thing you 
have got to have is the ability to move out very quickly to 
push aside that--those stacks of massive bureaucratic 
regulations and all the people who attend those regulations and 
get things to the field quickly.
    We drafted a one pager, a one-page law that became law that 
was used in the war in Iraq, and I will tell you how we did it, 
and the committee did it, this committee did it. It said this: 
It said if casualties are being taken on the battlefield, the 
Secretary of Defense is authorized and empowered with one 
stroke of his signature to waive all acquisition regulations 
and simply buy what is needed, get it to the battlefield.
    We did that during the height of the Iraq war when we had 
IEDs [Improvised Explosive Devices] being defended against with 
a vast array, as John says, of big programs. We had the 
jammers, as you know, Adam, that go on the--150 pounds or so 
that go on our vehicles that we would use to create a 
protective bubble over a convoy so that when somebody has a 
remotely detonated bomb on the road, and he tries to detonate 
that with some type of a remote device, a garage door opener, a 
radio, et cetera, that that signal is jammed.
    And we said in the committee, well, how about the guys on 
foot? If a guy is walking through a courtyard in Fallujah, and 
somebody is remotely detonating a 52-artillery round on him, he 
can't carry a 150-pound jammer on his shoulders. We said we 
need a small jammer; we need it quickly. The committee passed 
this law that was signed into law that said the Secretary can 
immediately move out a piece of equipment to the battlefield, 
push all acquisition regs aside, and simply buy it and get it 
to the troops.
    We built a small jammer that we called ``Little Blue'' that 
was man portable. It was about this big, weighed a couple of 
pounds, that a corporal could carry on his back on a dismounted 
operation. We got, as I recall, 10,000 of those invented and 
built and fielded in I believe it was 4 months, 3 or 4 months, 
and committee staff could correct the record if that is not the 
accurate time, but we did it very quickly.
    So you have to fast-field equipment, and there is a 
disconnect between the bureaucracy here that doesn't want to 
let go of the acquisition process and the guys in the field. 
You may recall that is how we got the Predator. Remember, the 
Predator was early fielded in Bosnia, and the tests--some of 
the test bureaucracies said, wait a minute, we haven't fully 
tested it. For example, we haven't got the deicing fixed on it 
and several other things. The general who had already used it 
in theater said, well, I have tested it and I like it, send me 
some more. We actually flanked the acquisition system.
    And so in my estimation, we have to streamline the 
bureaucracy. I know that is easier said than done.
    When I was a freshman, Dave McCurdy and I were assigned by 
the chairman to go off, and I think he just wanted to get us 
out of his hair, but to go off and fix the procurement system 
in a couple of weeks. So we traveled around the country. One 
thing I do remember is we sat in front of the president of 
Boeing, and he said, let me tell you what I think is wrong with 
the procurement system. He said, I am making some planes right 
now for an airline. I am going to have them to the airline 
ahead of schedule under cost. He said, I have got one airline 
representative in my shop here in Seattle while we are making 
those planes for them. He said, I am also making these planes 
for the Air Force. I have got 222 engineers who stop my guys 
constantly and force them to brief them on what they are doing, 
and he said, as a result, your aircraft are going to be 30 
percent over cost, and they are going to be delayed.
    So we are in the business of protecting the system from 
ourselves and from the Pentagon by having a labyrinth of 
regulations which very often disservice, and then when we have 
a scandal, we have the $200 hammer, for example, we lay on more 
regulations to fix that and go in exactly the wrong direction.
    So individual responsibility and, as John said, risk 
taking. In the end you need to have people--and I don't want to 
use the term ``bureaucrat'' in a derogatory way, because a lot 
of those folks have some guts, have some leadership, and you 
have got to have somebody that says, I am willing to take a 
chance on that system, let us get it to the battlefield, and if 
it doesn't work as well as it is supposed to, I will take the 
fall for that. We can't simply be in the business of justifying 
cost. We have to also be in the business of getting things out 
the door quickly and taking a risk. That is easy to say, very 
difficult to do.
    Mr. Smith. Those are good insights. I appreciate it.
    Mr. Skelton. Thank you for the question.
    I refer you to what this committee did in 2009 and again in 
2010 under the leadership of Mr. Andrews and Mr. Conaway, a 
bipartisan panel on acquisition. In 2009, they reformed--a 
separate bill was passed regarding major weapons systems; in 
2010, acquisition reform was passed regarding all other matters 
of acquisition.
    I would hope this committee could revisit those laws and 
see how they are operating. They were supposed to solve money 
problems as well as time problems, and I am convinced that they 
were well written, and the question is whether there is follow-
through in this committee, is there follow-through on it. I 
urge you to take a look at that if that would not at least 
solve part of your problem.
    Mr. Smith. Thanks once again.
    Thank you, Mr. Chairman. Yield back.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Mr. Chairman, we are 
all awed by the experience and the expertise of the three 
witnesses today. Senator Warner set an example of 
professionalism and bipartisanship in his office that few have 
been able to reach. There has never been a more principled 
legislator, I think, sitting in that chair than Duncan Hunter 
when he chaired this committee, and Ike Skelton brought to the 
attention of Congress some of the risks of China before it was 
popular to be talking about that. So we thank all three of you.
    Unfortunately, I do not share the optimism and confidence 
that Senator Warner has in Congress being able to do the right 
thing, and I think the American people probably are closer to 
me on that.
    If we take a picture, a snapshot of where we are, that is 
one thing, but if we look at the curves, which is more of what 
life really is, we see some startling things that concern us. 
The first thing is that in 2010, for the first time in 100 
years, we stopped being the manufacturing leader of the world. 
China became the manufacturing leader. Just recently we have 
ceded our expertise and superiority in the space program to the 
French, the Russians, and the Chinese, the first time in any of 
our lifetimes. And the third thing is, forget sequestration and 
forget these draconian cuts that could come down, just the $450 
to $489 billion--and nobody knows the exact figure of cuts that 
we have already done. We were at the Pentagon last night, and 
it seems to be a conclusion that everybody shares that we are 
today the greatest military the world has ever known, but even 
without sequestration and even without these additional cuts, 
just the cuts we are going to make, this $450- to $480 billion, 
will take us down from being the greatest military the world 
has ever known. We may still be the greatest military in the 
world, but not the greatest military the world has ever known, 
because we are making some significant risks that we are going 
to have to undergo.
    If the three of you, with your wealth of experience and 
expertise, had to issue one warning that we could carry to our 
colleagues, not about sequestration, not about additional cuts, 
but about where we are today with the cuts we have already 
made, what would that warning be that we could take to them and 
say, hey, we better listen to this, and we better heed this 
warning?
    Mr. Skelton. This committee probably got tired of hearing 
me say over and over again that from the time I came into 
Congress until my last year here, we had had a total of--which 
covered 34 years--we had had a total of 12 military 
contingencies, and if you add to that since I have been out of 
Congress the participation of America in the NATO [North 
Atlantic Treaty Organization] air strikes in Libya, that would 
be a total of 13. Some of those contingencies were small, some 
were pretty large, and if there is one thing to worry about, it 
is the uncertainty of our national security.
    All of those 12 military contingencies save one were 
unexpected. Iraq, of course, is the one we initiated. The 
outcome, of course, was not predicted because many thought that 
it would be an in-and-out situation. You can't tell what is 
around the corner. Congress is charged to raise and maintain 
the military, but the military must be ready for the 
uncertainties, and there were 12 uncertainties while I sat in 
your seat in this Chamber, and we met them, some of them far 
better than others as time went on. But you don't want to have 
something bad happen and be unprepared for it.
    I had a roommate in law school, my first year in law 
school. My roommate had been in the Pusan Perimeter in Korea, 
which was, as you know, a low moment in our Korean war effort. 
We don't want that to happen again, and it is the uncertainty 
that you must sell to your colleagues. Just as sure as God made 
little green apples, we are going to have another contingency. 
Let us hope it doesn't happen, but it will.
    Mr. Warner. First, may I say how proud I am of you and your 
representation of the great State of Virginia, which we are 
both so fortunate to have served. I have known you from the 
first time you started in politics, campaigned for you, and you 
and I campaigned on fiscal conservatism and a balanced budget, 
and you have adhered to that, and I commend you for it.
    But at the same time, we have the need today to reduce 
spending, and I think collectively everybody in this room 
agrees with that. It is just how we go about doing it. And I 
come back time and time again that the strength of our economy 
is no less important than the strength of our weapons systems 
and the ability of our forces to protect us. They are tied 
together. And so you have got the most awesome challenge that 
you have ever had in your entire distinguished career as a 
member of this committee, as a Member of this Congress to 
somehow strike that balance between what we can do by way of 
spending reductions and at the same time not weaken to the 
point where we are perceived as a Nation that is beginning to 
withdraw from our global responsibilities.
    Mr. Hunter. Thank you. A great question. I think I am 
tempted to give you my big three rather than the big one.
    I think this Nation has to retrieve its industrial base. In 
World War II at Willow Run, Michigan, we turned out a bomber 
aircraft every hour to aid in that war effort. I think we did 
the same thing in San Diego.
    The industrial base is locked intricately with the national 
security interests of this country, and we have gutted the 
country. We have sent a great deal of our industrial base, and 
the tragedy of the exodus is this: China has taken a large part 
of the American industrial base. As a result of that, they have 
cash. Nations that make things have cash; nations that don't 
make things borrow cash. We have discovered that. In the old 
days China could not afford to buy Kilo-class submarines from 
the Russians. They couldn't afford to buy Sovremenny-class 
missile cruisers. They didn't have any money. Today they use 
American dollars to buy weaponry, some of which is aimed at the 
United States. The missile cruisers that they bought were 
designed for one thing; that is, to kill American aircraft 
carriers. So the industrial base of China is booming, and it is 
accumulating more and more American companies, more transplants 
on a monthly basis.
    At the same time, the American industrial base diminishes, 
and with it to some degree every time one of those facilities 
leaves, we become somewhat more impoverished. We have more 
people who need the social services that are at the heart of 
this budget debate.
    If you look at the big picture, history may say that China 
accomplished two things by achieving the transplantation of the 
American industrial base. They allowed for the surging and mass 
mobilization of their own military capability with high-
quality, high-capability military apparatus, and at the same 
time they impoverished the Americans to the point where we had 
to contract our national security, which is now at issue in 
these budget cuts that are called necessary.
    So if there was one message that I would give to the 
American people and to this Congress, we must retrieve our 
industrial base. It is part and parcel of our national 
security. It builds these systems.
    The question was asked by the gentleman from Washington Mr. 
Smith about large cost overruns, the fact that it is difficult 
to buy anything inexpensively in the defense sector. Part of 
that is attributable to the fact that we now have lot--we have 
onesies and twosies in this industrial base; that is, in many 
sectors we will have one company or maybe two companies that 
make a particular product, and that is it. You don't get good 
prices that way, and you don't get good innovation. You need 
competition. When you devastate your industrial base, you have 
less competition, and as a result you have higher prices.
    If we retrieved a large part of the industrial base of this 
country, we would have more middle-class jobs, more high-paying 
manufacturing jobs, and we would have less of this budget 
problem which right now is bringing this major question before 
us.
    The Chairman. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. It is a really 
special honor to have these three gentlemen before us today, 
and I thank them for their service to our country. And I 
especially want to thank Chairman Hunter and Chairman Skelton 
for their mentorship and tutelage for many of us on this 
committee. It is a special honor in my career that I got to 
serve under both of you, and it is great to see all three of 
you today, especially our two chairmen coming back.
    My premise is that we should learn from our successes and 
then also learn from our deficiencies, and in the last couple 
years I can point to two successes in the area of procurement 
that I think provide role models as to what to do, not just 
procurement, but the broader strategy.
    The successful strike against bin Laden's compound on May 
1st in large part happened because of the bravery of the 
individuals involved, but you three gentlemen gave them the 
tools to succeed. You supported a reordering of our 
intelligence operations so we were able to find that needle in 
that haystack in a very impressive way. You created the 
opportunity to move quickly, quietly, and lethally to the place 
of attack. You had the technology so our guys in that compound, 
our Navy SEALs [Sea, Air, and Land] and others, could see what 
the enemy could not and take full advantage of that situation. 
I don't think there is an American breathing who would say that 
whatever we invested in that effort was worth every penny.
    The interesting thing is we didn't invest a whole lot in 
that effort relative to some other things. There weren't a 
whole lot of cost overruns on those helicopters, there weren't 
a whole lot of cost overruns on those night vision tools, and 
the intelligence money that we spent, if anything, has 
moderated in cost the last couple years because we reorganized 
it. So that is a success in my book.
    The second success is one that I regret that we had to work 
on together, but I am glad we did, and that is the MRAP [Mine 
Resistant Ambush Protected] program that saved countless 
numbers of lives, and it happened because of this committee. We 
all heard the excuses and the lethargy from the bureaucratic 
community, how it was going to take years to figure out what to 
do, and, Chairman Hunter, you in particular, and Gene Taylor, 
who served on this committee at the time, supported by Chairman 
Skelton, just became impatient and intolerant of those 
explanations, and the result was, as you said earlier, we 
fielded much more successful up-armored vehicles, we did it in 
a hurry, and we saved a lot of people's lives, a lot of 
people's lives. And I think if you want to talk about an 
achievement in a legislative career, that is the best one I 
could possibly think of.
    Now, that didn't have a whole lot of cost overruns, and it 
didn't have 222 engineers climbing all over the people making 
those things. It happened because there was a will, and there 
was a strategy, and there was a level of attention paid to it.
    I contrast that with the deficiencies, a whole bunch of 
them. They add up to $296 billion over a 7-year period in cost 
overruns of major weapons systems, and you pick any one you 
want. I will look at the SBIRS [Space-Based Infrared System] 
platform as an example. The R&D [research and development] cost 
that we poured into the SBIRS platform has made the per-unit 
cost of one of those things five times what it was supposed to 
be when we started out the program.
    Now, I would be interested in the guidance the three of you 
could give us on the direction you think we should take to have 
more successes like the strike against bin Laden and the MRAP 
success and fewer failures like we have had in the one that I 
mentioned. What would you suggest that the role of the 
committee should be in maximizing those successes and 
eliminating the deficiencies?
    Mr. Hunter. First, to the gentleman from New Jersey, what a 
lot of fun it has been working with you, and together we on 
this committee have done some good things for the country. It 
is great to see you again.
    Mr. Andrews. Thank you.
    Mr. Hunter. And great to see you continuing to work for 
America.
    Mr. Andrews. Thank you.
    Mr. Hunter. We have got to break the pencil. You have so 
many systems that started out as $5 systems and ended up being 
$100 systems because of the proclivity to change the 
blueprints, change the design, and add bells and whistles, and 
that is human nature. Military people do what they think they 
are supposed to do, what they are ordered to do, what their 
challenge is, and when somebody comes up with a new idea, 
something that can be added to a system, he does everything 
that he can to get that thing in.
    As Mr. Simmons, the staff director of the committee, used 
to say, at some point you have to break the pencil. You have 
got to say, okay, this is the design, we are going with it, we 
are not going to redesign this thing every couple of months.
    Mr. Andrews. Right.
    Mr. Hunter. And I think there needs to be a major directive 
on that. I think that is a very important thing.
    Just one point, because you talked about the committee. 
When we were having a tough time getting a huge load of MRAPs 
out, that was--I believe it was in 2005, that were going to be 
delivered in December. Mr. Simmons, our staff director, went to 
the--this was up-armored Humvees.
    Mr. Andrews. Yep.
    Mr. Hunter. It was going to be a long run before we got the 
next load of some 10,000, as I recall. He went to the company, 
and they said--he said, what is the problem here, because Mr. 
Simmons was a CEO [Chief Executive Officer] of an aerospace 
company before he came to D.C. to be our staff director. They 
said, steel. They said, we got this, this is our steel 
schedule, we have to live with it. He said, where is the steel 
company? He went to the steel company, and they said, this is 
our schedule. He said, why can't you do three shifts? They 
said, well, we would have to work with the unions. He said, let 
me talk to them. Mr. Simmons, our staff director, sat down with 
the union leadership. They said, we have got kids in Iraq and 
Afghanistan, we will run three shifts.
    Mr. Andrews. Right.
    Mr. Hunter. We pulled up that shipment of up-armored 
Humvees to protect lives of our folks in Iraq, I believe, and I 
have the staff--maybe Jenness can get the exact numbers on 
this. As I recall, we advanced it from instead of getting it in 
December of 2005, we got them in April of 2005.
    So I would say that in the area of acquisition and trying 
to change this bureaucracy, the same things work that work on 
the battlefield: Initiative, leadership----
    Mr. Andrews. Focus.
    Mr. Hunter [continuing]. And the willingness to take risk.
    Mr. Andrews. Focus.
    Mr. Hunter. Yeah.
    Mr. Warner. I want to pick up on a very important point 
that you made, and that is the remarkable apprehension of--
eventually of bin Laden. It showed a lot of courage on behalf 
of the President to make that tough decision. Say what you want 
and criticism, it was an extraordinary----
    Mr. Andrews. Yes, sir.
    Mr. Warner [continuing]. Operation and teamwork from the 
Commander in Chief right on down. But ISR [intelligence, 
surveillance, and reconnaissance], those magical three letters 
that you used, laid that foundation, and if I may recall, this 
threesome right here, about 15 years ago the unmanned system 
was not a very popular thing. The Air Force said, well, they 
will--we will lose cockpits. We have got to have so many 
cockpits. The three of us put together a law at that time, 
became law, a bill and it became law, directing the Department 
of Defense to accelerate, and we set benchmarks and time 
schedules on the number of programs that they should try and 
initiate to have unmanned systems, Army, Navy, Air Force and 
Marines, and they did it.
    As a matter of fact, that law, they left us in a cloud of 
dust in about 3 years and went off on their own and really 
achieved it.
    I got a note that I am affiliated with two companies that 
are in it, but I was a champion of ISR long before that.
    That is the type of cuts you have got to look at--when you 
are coming to grips with this awesome responsibility of the 
budget problem. Take out those areas that led to the capture of 
bin Laden, which we needed to get, and the other magnificent 
things we have done, and protect those sources so that we can 
have the modern weapons not only for the current generation, 
but 10 years down the road for the next generation of all-
volunteers.
    Mr. Andrews. Yes, sir. Thank you.
    Mr. Skelton. I think simply you should revisit what you 
have already done, whether it be the air/land subcommittee or 
it be an extension of the panel that you and Mr. Conaway 
headed, see how those two laws are working. From the testimony 
and the comments prior to passing that out of this committee, a 
lot of those problems would be solved. And I can only refer you 
to what you have already done and what this committee has 
already produced. Take a look at it.
    Mr. Andrews. Thank you, Mr. Chairman. My time is up.
    I just want to say that the chairman has implemented 
another panel to follow up on the financial statement side of 
this, which Mr. Conaway is chairing, and we are diligently 
meeting every Thursday morning at 8 o'clock to make sure we get 
you a good work product.
    Thank you very much.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you all so much for joining us. Senator 
Warner, Chairman Hunter, Chairman Skelton, thank you so much 
for your service. You really have shown the way for us here on 
the House Armed Services Committee.
    And I wanted to begin by talking in a broad perspective 
about risk. And you all have been through a number of efforts 
to look at our defense posture, to look at defense reviews, 
whether it is our National Defense Strategy, Quadrennial 
Defense Review. So you have seen how the threats have changed 
through the years, you have seen how the breadth and scope of 
our military has changed, where the challenges are. And if you 
look today, obviously we are in an extraordinarily challenging 
world with many different chapters that have been written, but 
many to be written, about what we do and how do we respond. And 
there are a lot of things we can do to look at the force 
structure and determine how do we change that, but as you have 
heard, the concern is that strategy should drive budgets, 
budgets shouldn't drive strategies.
    Regardless of what goes on, those threats are there, they 
are real, and this country has to make sure that we are 
properly prepared for that. And the realm that we exist in is 
what are the risks; what are the risks in the what-if 
scenarios? And I really am focused on what happens with our 
Marine Corps and our Navy.
    We talk about ships, we talked about the industrial base, 
and we have had recently some great successes there with USS 
Nimitz in that class have been very successful; the USS Arleigh 
Burke, a very successful class; the USS Virginia, Senator 
Warner, your brainchild there to make sure that was put 
forward, a very, very successful program. We talk about having 
those assets in addition to, as you all spoke so eloquently 
about, the men and women in our military, the best absolutely 
in the world and doing a fantastic job.
    The question is this: If you could give us your estimate, 
based on some of the proposed budget scenarios that have been 
put out there about reductions, both the $450 billion existing 
and then the sequestration that could result in an additional 
$500 billion, what do you believe are the risks that this 
Nation faces in the future? And specifically with a Navy that 
may have less than 250 ships, with a Marine Corps that may lose 
a number of units, what is your estimate about the risk that we 
face and what this Nation would be looking at?
    Our challenge is to communicate not just to Members of this 
body, but to the public about what does this mean for this 
country and what are those risks. So you all have been through 
this process, know it intimately. I would like to get your 
perspective on the risks that this Nation faces with these 
budget scenarios.
    Mr. Warner. Well, we start with the fundamental proposition 
which is eminently clear to all of us: We are an island Nation. 
Yes, this is a global community, a global economy, a global 
defense, but the fact is that we are dependent on the sea lanes 
of the world, which we call the common property of the world, 
observing sovereignty rights and others, but operating those 
sea lanes and protecting those sea lanes such that we can have 
our trade and the necessity of bringing in the raw materials 
and regrettably an abundance of fuel that we must have to 
support our economy. That is the prime mission of the United 
States Navy, and we have had it that way for years.
    Now, people argue about fewer and fewer ships. I remember a 
600-ship Navy, 300-ship Navy. Actually when I was privileged to 
serve in the Navy Secretariat, we had close to 900 ships. Most 
of them regrettably were old World War II ships which we had to 
scrap. But the point is, don't let the numbers tangle you up. 
It is the capacity and the ability of the ship. The ship today 
is far greater in its capacity and ability and its weapons 
systems than the destroyers of the early era, and the same with 
the carriers. So they are magnificent ships.
    We simply must keep a replacement cycle, a modernization 
cycle going, but the numbers are not the magic. The key is come 
back to the island Nation and our reliance on those sea lanes 
that must be kept open.
    Mr. Hunter. Mr. Wittman, we--China is developing the 
ability, and I think their--at this point their game plan with 
respect to taking on the U.S. Navy is not to try to build a 
counterpart to the carriers and the attending ships, but to 
have the ability to kill them at long range with ballistic 
missiles which are launched from the mainland, which have a 
high-capability, antiship targeting system. And they are 
developing those systems right now, and we are very concerned 
about those.
    Offsetting that capability, that move, which we see right 
now, and we are analyzing, will require a lot of money. If we 
have these draconian cuts that are proposed, we are going to 
lose the ability to protect our carrier battle groups in those 
areas of the far Pacific. We will lose it, and I would predict 
that it will be gone by 2020. We will not be the dominant 
force; in fact, we will be a subservient force in the western 
Pacific. It will take an enormous investment.
    And there is several things you have to do, incidentally, 
with missile defense. You not only have to have the ability to 
shoot down those first several antiship missiles that come in, 
you have to be able to shoot down salvos of antiship missiles 
that come in. That means you need to have endurance built into 
your antimissile programs. That requires money, it requires 
investment, requires innovation. The Navy will not be able to 
meet that challenge with the massive cuts that we have posited. 
So we lose the western Pacific. And I think this clearly puts 
us on a glide slope to lose the western Pacific.
    We lose the space battle. We lose the competition in space, 
which is key to our military operations. All the countries in 
the world watched with interest as they saw American precision 
munitions devastate Saddam Hussein's armored formations far 
ahead of our advancing 3rd Marines--or 1st Marine Division on 
the right and 3rd Army Division on the left as we advanced up 
the Euphrates and the Tigris River plains in Iraq. They saw 
that; they saw that use of precision.
    If you knock out the satellites, those highly targeted 
precision munitions become dumb bombs and become much less 
effective. They understand that, and they have a military 
doctrine of going after a superior force by targeting a 
weakness and hitting it. So I think the space competition is 
part and parcel of maintaining a viable Navy.
    Now, with respect to the Marines and the Army, we have--we 
are looking at scenarios that might occur at some point, and 
especially if China becomes expeditionary. That means it is 
able to move its forces to Africa or other places or other 
parts of the world where they want to protect an extractive 
industry, and they end up planting a military flag, and there 
is a confrontation.
    Putting explosives on target with electronics today has 
changed the face of warfare. As I said, precision munitions 
used for the first time in the majority in Iraq were 
devastating to the enemy.
    If we allow China to have that ability to knock out our 
precision capability, that is, if we lose the space contest, 
those marines and soldiers who have to in the end carry the 
battle to the enemy--and we learned in Iraq that this isn't a 
push-button world. As Kip Yeager fought his last battle and 
finished it with a knife, the grandson of the great Chuck 
Yeager who broke the speed of sound, in a small room in 
Fallujah, we learned that it is not a push-button world. It is 
a world that ends up with young men fighting at close range, 
and they are marines and they are soldiers, and the investment 
that we have made in blunting the capability of the other side 
to kill those young men becomes very critical. So the exposure 
to land forces that would work in any of a number of scenarios 
in the western Pacific will be massive, and we will take 
massive casualties.
    A second way we would take casualties is this: We have very 
few bombers today. We are at an historic low point with respect 
to bomber aircraft, long-range bomber aircraft. They are very 
important in armor battles. Now, we didn't have big armor 
battles in Iraq and Afghanistan, but if you have armor battles, 
and you need to have--utilize bomber strikes to neutralize the 
armor capability of the other side, all of our analyses that we 
have taken now say even with the number of bombers that we have 
today, if we have two scenarios that involve armor, we are 
going to have to swing the bombers. The Air Force calls this 
swinging the bombers. Swinging the bombers means that you take 
them out of one theater where you are fighting, which is risky, 
and you expose that theater, and you take them over to the 
other theater and let them make a strike. And when you ask the 
question, what does the risk translate into, in the end the 
briefer will tell you, increased casualties, because if you 
don't have those bomber aircraft there to blunt that armored 
attack, you will take American casualties.
    So as our investment in protecting our ground fighting 
elements goes down, protecting them by continuing to advance 
the technology that protects them, like having precision 
missile guidance that allows you to knock out armored 
formations far ahead of your infantry, if we cease to have a--
to keep up with other nations that are trying to neutralize 
that ability so they can get in and kill our soldiers and 
marines, then you will have a massive increase in the risk of 
death and high casualty numbers in those ranks. So that is a 
second major risk.
    Lastly, airlift, sealift, you can't undertake the airlift 
and sealift that we need in these expeditionary roles that we 
have been in with these massive cuts. You simply can't do it. 
We are down to a fairly historic low with respect to our 
airlift. You have got roughly--we have got a little more than 
half of the airfields available to us around the world that we 
had in the 1960s. So having long-range lift and intratheater 
lift, very important.
    Our lift assets will go down measurably under these massive 
budget cuts. That means we won't be able to move men and 
materiel into locations in a timely manner, and that means that 
you lose contests, and you lose people, and you lose ground.
    So those are several of the risks that are inherent in 
these proposed cuts.
    Mr. Skelton. Your question is that of risks. Of course, we 
are aware fully of the trend in China, fully aware of what is 
happening in the Arab world, but we really don't know where the 
next shoe will drop.
    I strongly suggest keeping a very strong intelligence 
network, including paying more attention to the HUMINT [human 
intelligence] element thereof, which was devastated a good 
number of years ago and now slowly being built up. In addition 
to that, you will need to have and to educate and to protect 
strategic thinkers within our military who will be listened to 
by Members of Congress and by the administration.
    I once asked General Robert Scales, who is a former 
president of the Army War College and a great historian, I 
asked him out of an average graduating class from the Army War 
College how many could immediately have a serious conversation 
with George C. Marshall, and he said two or three, but that is 
all right. These would be strategic thinkers that others have 
relied on--Harry Truman had them around him, Dwight Eisenhower 
had them around him--and you have to identify them and protect 
them in their career. I cannot emphasize that enough, because 
when some of them are identified and not shepherded into solid 
positions and kept in the military, you are losing a national 
asset. These are the ones who can say ``look out for,'' and 9 
times out of 10 they are right. That is the best I think you 
can do, intelligence and strategic thinkers.
    Mr. Wittman. Thank you, Mr. Chairman. Yield back.
    Mr. Hunter of California. [Presiding.] I would like to 
recognize our colleague from San Diego, Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and it is a pleasure 
to sit here and listen to the pearls of wisdom from all of you, 
and it certainly was a pleasure serving with you both, Duncan, 
and I thank you very much for your leadership and your 
mentoring.
    I have wanted to ask some questions about oversight, but I 
think we probably have had a chance to delve into a number of 
those. Sometimes it still falls short for me, that we could do 
a better job. I think the chairman has brought to the committee 
a number of witnesses recently, and we have had a chance to 
look at particularly many of the costs, irrespective of the 
wars of Iraq and Afghanistan, and the fact that many of those 
costs have escalated to such a degree that we now are in a 
position where we really do have to pull back in many, many 
ways, and I wonder whether our role in that oversight could 
certainly have been sharper and more focused.
    If you would like to share any additional insight in that, 
I would really entertain that, and then I have a few other 
questions. I just want to be sure that we have had a chance to 
get all of your thoughts out about that.
    Mr. Hunter. First, so nice to see my colleague, and thank 
you for your long years of service on this committee. And here 
is what I would say. With respect to costs, there is no more 
compelling force than competition; that is, the threat that 
someone else might get the program. One problem with the 
shrinking industrial base is we have left in some areas one 
company or two companies that might be able to make something. 
As a result of that, you can jawbone them all you want. We can 
pull companies in that make particular especially major weapons 
systems, and we can beat them up verbally, and they go back and 
the costs continue to rise because we haven't done anything 
substantive or real.
    One thing that we initiated in this committee that I 
thought was a very good thing, we established the Challenge 
Program. We did that with a law that said if you are a company 
in the United States, and you think you can make a particular 
product, a primary product or a component, cheaper and with 
better warfighting capability than the other guy, than the 
incumbent, we are going to let you challenge them. And you can 
come in and brief the Pentagon on why your product is better 
for the taxpayers and gives you more warfighting capability, or 
a combination of those factors, and if we find that to be true, 
we can kick out the incumbent, and we can put you in. There is 
no kick in the pants so effective for somebody who is going 
over cost than looking over his shoulder and seeing somebody 
else getting the job.
    The Pentagon hated the Challenge Program. It upset the 
apple cart, and as a result of that, they have pigeonholed it 
down to a kind of a semi-small business set-aside status. I 
would reinvigorate the Challenge Program.
    Mrs. Davis. Yeah, I appreciate that, because I was going to 
say I don't think that that is working, and what we need to 
have perhaps is----
    Mr. Hunter. It is not being utilized by the Pentagon.
    Mrs. Davis [continuing]. Greater reporting of those kinds 
of programs and reinstate them.
    Mr. Hunter. It is not being used by the Pentagon.
    Mrs. Davis. Yeah, yeah.
    Mr. Hunter. It upsets them.
    Mrs. Davis. And it is that partnering, I think, with the 
Pentagon so that the goals, the strategic goals, are really in 
sync with what the needs are that we can play a greater role.
    I would like to turn to personnel and my dear friend Mr. 
Skelton. You always certainly encouraged me in that area to be 
very, very mindful of the men and women who are serving, and 
obviously their families, and I think we have tried to do that.
    I can remember that a number of people would say that the 
military benefits were basically sucking all the, you know, 
oxygen out of the room when it came to defense systems, and 
that, in fact, you know, we needed to look at those more 
seriously.
    What would you say to people today who look at that? We 
know that many of those issues around health benefits are 
perhaps unsustainable, but at the same time I think we believe 
that we must do everything in our power to support the men and 
women who serve. That is going to be an important part of the 
discussion as we move forward, and I am looking for some pearls 
of wisdom around that issue that we can go forward with.
    Mr. Skelton. Well, it is not brain surgery that you need 
the highest-caliber young men and young women in uniform, 
whether they be recent graduates of basic training, or whether 
they be a lieutenant colonel leading a battalion, or whether 
they be a strategic thinker advising the President and the 
Secretary of Defense.
    I think that you should do your very, very best to keep the 
very best you have in uniform, because if you go back to what I 
saw in 1978 aboard the USS Saratoga, you are going to start 
losing some conflicts, you are going to have bad things happen, 
and, as a result, recruitment, retention goes down, and you 
will end up with a second-class military. And even if you had 
the finest weapons in the world, you would not have the bright, 
able, innovative young people to use those weapons.
    You lose proportionally, or I should say disproportionally, 
ability when you cut the ability of your force. They are all 
volunteers, they don't have to be there, and so many of them 
could make better money elsewhere, but they are there for 
patriotism, a sense of duty, and you want to keep them.
    I would put as many eggs as you can stand into keeping them 
happy. And there is an old saying, if Mama ain't happy, ain't 
nobody happy, and this is so true. How many of your spouses 
have said to the other spouse who is in uniform, Honey, you 
have been over there three times, let us go home.
    So my message to you today is to do the best you can in 
health care, benefits, training, education so you can keep that 
brain power in uniform.
    Mr. Warner. I would simply add to that--and, by the way, 
thank you for--I have been sort of watching everybody. You have 
paid great attention to this and nodded your head on occasion 
when some of us have made a statement, and that is reassuring.
    But I would like to point out, and I have seen quite a span 
of the history from closing year of World War II to today, this 
country, its profound and deep respect for the men and women in 
uniform is manifested today in how well we try and care for the 
wounded and for the families who have lost their loved one as a 
combat casualty. I think we have made great strides in that 
direction, and at the same time as we see what we do there, 
there are young men and women standing at this moment in 
recruiting stations signing up to come in and be a part of this 
force, well knowing and full well knowing that they someday 
could be the casualties themselves.
    That is the magnificence of our system today, the one that 
we cannot let break, the one we cannot lose faith with those 
men and women in uniform today, nor prepare those that will 
come 10 years from now with anything less than the best of 
weapons. But you still have to deal with your budget.
    And I want to close by one--two subjects that we didn't 
turn to, and that is the nuclear triad that gives us the 
nuclear deterrence today. It deters not only anyone from 
attacking us, but from others feeling the necessity they have 
got to develop their systems. That has to be made strong, 
because it is at the very heart of our ability as a Nation 
working with others to prevent the proliferation of weapons of 
mass destruction, another very dangerous area. I do hope such 
cuts as this committee will have to face will not be borne by 
those very important areas of our defense.
    Mrs. Davis. Thank you.
    Mr. Wittman. [Presiding.] Thank you, Ms. Davis.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you. Thank you, Mr. Chairman.
    To the three chairs, it is an honor to hear you. I didn't 
have the pleasure of serving with any of you, but you have 
touched upon subjects that are very dear to me. I represent the 
congressional--the First Congressional District of Hawaii, so 
you can imagine how important the Pacific theater is to me and 
what is going on, and one of the topics that I have been 
following very carefully, of course, is China.
    So if I can begin with Chairman Hunter, you said many 
things, and I wish I had more time, but given the time 
limitation, I want to concentrate on certain portions of it. I 
agree with you that we need to be that great industrial Nation 
that we were, and the statement made that World War II, about 
the fact that America is going to win. And I think the other 
comment that was made was that it is the sleeping giant, and it 
is something that everyone knows, yet we seem to have lost that 
edge, if we can call it that.
    I also was listening very carefully to your statements 
regarding how China's navy or--may build--and we know that they 
are putting a lot of money in their military, but more 
important than that, your emphasis on the use of ballistic 
missiles on their part to take out our naval force.
    Trying to put all of that together, I guess my fundamental 
question is, so what do we do? I mean, we do know that we need 
to, I believe, keep up our research and development. That is 
going to be very critical. We need to be able to counter that, 
because I can't see us not having a force because of the fact 
that we need that force because we are what really protects--as 
Senator Warner talks about us going back to the concept that we 
are an island Nation, so you can imagine we are an island 
State. So I can identify that.
    So how do we do this? How do we build up our industry, then 
also protect our naval fleet in the Pacific, which is critical, 
because we are what I believe holds the peace in the Pacific 
and protects the rest of this Nation, because that is the 
theater.
    So there is so many things in what all of you said, but I 
would like to understand what you think is where we go.
    And, you know, I will also tell you one of the issues we 
always face, especially in Hawaii, is how do we preserve 
shipbuilding, the Jones Act, for example, and the fact people 
forget it was part of the Merchant Marine statute, and how do 
we do all of that? What is your recommendation?
    Mr. Hunter. Thank you very much for that question. And 
congratulations on representing a wonderful part of the world 
in the United States.
    There is two aspects. Number one is how do we offset what I 
see as a coming dominance of the Western Pacific by China. And 
the second question is how do we get that industrial base back, 
as I understand it.
    Let me just take the first part, that first question. There 
are four categories. The Chinese plan, the strategy, it appears 
to me, in looking at their development programs that are being 
developed and fielded right now, is heavily reliant on 
missiles, about 1,000 midrange ballistic missiles now placed 
around the Taiwan Straits, approximately 100 years being 
developed, and extremely critical to our Navy's plans right now 
is the antiship ballistic missile. That is a ballistic missile 
that can travel 600, 700, 800 miles with an antiship guidance 
system. Toward the end of its flight, as it comes in toward an 
aircraft carrier, it has a secondary guidance system that 
allows it to adjust and maneuver until it hits that carrier.
    An aircraft carrier has 5,000 Americans on board. The 
killing of an American aircraft carrier is devastating in any 
type of a scenario. You stop missiles with missile defense. 
Now, one thing this committee did, incidentally, years ago is 
when we started doing theater missile defense systems, that was 
systems that could shoot down short-range ballistic missiles, 
we insisted in this committee and wrote it in the language that 
they had to start fielding those on ships. That became the 
Aegis defense system that we have now fielded. That is the 
ability to shoot down what I would call moderate-speed 
missiles. You have to have the ability to shoot down fast 
missiles; that is, a missile that comes from a long range and 
reenters with high sped.
    There is a secondary class of missiles, and that is cruise 
missiles. And some of them are maneuverable; that is, they jink 
around like a running back running down to a goal line as they 
come in toward the ship they are intended to kill, and they are 
hard to shoot down. So having an ability to shoot down 
missiles, missile defense, is critical to maintaining the 
dominant presence in the western Pacific, and it is going to be 
expensive. As John said, you make mistakes, and you spend 
money, and you have to go back and keep at it until you get a 
system that works. It is expensive. You can't do that under 
this budget. So missile defense is a critical aspect.
    Submarines. Submarines are the leverage system of the 
United States Navy. The submarines at times in our history have 
sunk hundreds of boats, single submarines, hundreds of cargo 
ships, and the reliance on the Pacific Rim of those sea lanes 
that pull in 50, 60, 70, 80 percent of their petroleum 
products, including our allies, is a very strong one, and one 
that could be very much threatened by a submarine system.
    Our submarines are the best in the world. There are not 
many of them. We are going to go down below--even without these 
cuts, we will go below 50 attack submarines, and the smart 
people that I know, and I know John knows and Ike knows, too, 
in the submarine areas tell us it would be best if we had close 
to 100 attack submarines, which we used to have. We are going 
to go down much lower. Submarines are expensive. We are not 
going to be able to build the submarine fleet that we need with 
these cuts. So submarines is the second aspect of defending the 
western Pacific.
    Space. If we can be blinded successfully, the entire 
forward projection apparatus, the United States Navy, is 
devastated if we can be blinded in space, because so much of 
what we do depends on a space apparatus. You have to be able to 
do two things: One, defend the assets that you have got that 
are sending those signals and making your equipment and your 
weapons operate; and the other is to take out the other guys's 
stuff so when his missile is coming in on your aircraft 
carrier, you can turn off his missile and make it go down. So 
having a strong position in space, winning the space 
competition is a key to the western Pacific and, I might say, 
lots of other military operations. That is the third one.
    The fourth one is having an enduring strike program; that 
is, the ability to shoot and shoot and shoot again, meaning we 
have to have our own capability to launch ship-to-ship 
missiles, ship-to-shore missiles, and be able to maintain that 
and, incidentally, maintain those defenses that I talked about 
for long periods of time, not just to handle one or two 
missiles, but salvos of missiles. That is very expensive, being 
able to put that infrastructure in place that allows a carrier 
battle group to defend itself for days against sporadic missile 
attacks, very expensive and something that is going to require 
more development.
    Those are four areas that are necessary in the western 
Pacific.
    And lastly, the industrial base, I think we have got to 
bring it back. We see more and more American companies going to 
China, taking huge pieces of our employment and our technology 
with them, because they feel they have to. I think we should 
put tariffs on Chinese goods, fairly strong tariffs in the 
national interest, so that Americans over here--so that when a 
businessman sits at his table, and he is told that he can 
jettison his American workers who are getting $22 an hour in 
return for folks that will work for $22 a day, roughly one-
tenth of the labor cost, he says, there are other 
considerations. The only thing that is real is the tariff, 
meaning it is going to cost money to bring those products to 
the people that pull the train, which is the American consumer.
    We also need to punish this manipulation of the yuan, of 
their currency, which gives them an advantage, and the VAT 
[value-added tax] tax, meaning if this microphone costs $100 
and is made in China, when it goes down to the docks to be sent 
to the United States to be sold to you, the Chinese Government 
rebates all the tax money, 17 percent VAT. That takes the cost 
down from $100 to $83. If you make this microphone for $110 
here and send it there, the Chinese Government gives you a $17 
penalty when you get to the docks. That means yours just went--
they both started at $100. Yours went to $117 when the consumer 
gets it, theirs went to $83. You have a 34-point advantage 
before the opening kickoff in this football game called 
international trade competition.
    That is bad business. We should change that. We should 
retrieve the American industrial base, and with it we will 
retrieve a part of our defense capability which we have lost, 
which is the ability to mobilize, and to build things quickly 
and effectively that we use for national security.
    Mr. Warner. Mr. Hunter has covered quite well the question 
you have asked. I just wish to note that I am privileged to be 
a part of the group that is trying to work to build the museums 
at Ford Island and restore the tower as a constant reminder of 
how Hawaii is at the very basic, pivotal spot of our defense 
system, as it was then on that fateful day, as it is now.
    Thank you very much, Mr. Chairman. I must ask the courtesy 
of the chair to excuse this humble Senator. I leave it in good 
hands, and it has been a memorable hearing for me to join here 
once again and with this distinguished committee. I predict 
that you will resolve this issue, Members of Congress, and it 
will be looked upon as one of your finest hours. Thank you very 
much.
    Mr. Wittman. Thank you, Senator Warner. We appreciate that.
    Mr. Skelton. I appreciate your question, but Mr. Hunter has 
discussed it far better than I. When I look up at the portrait 
of my old friend Bob Stump, and I recall walking around on Ford 
Island with him and how he was telling me what happened here 
and what happened there, and the ramp that the PBYs [Navy 
patrol seaplanes] came up on, and this was during the war. And 
I hope whatever you do there, and I am very much supportive, 
will be a tribute to the Bob Stumps in this world for the 
efforts that they did in the moment of American greatness.
    Ms. Hanabusa. Thank you very much for the plug for Ford 
Island.
    Thank you, Mr. Chairman.
    Mr. Wittman. Gentlemen, thank you so much. Thanks for your 
service to our Nation. Thanks for coming in today and providing 
your reflection. As I said, your experience there and seeing 
where this Nation has been and letting us know where it needs 
to go, especially in these tough times from a budgeting 
standpoint, is critical. So again, thanks much for taking the 
time today, thanks for your service to our Nation, and we look 
forward to continued conversations about where we go in the 
days and months to come.
    Mr. Hunter. Mr. Chairman, thank you for allowing us to be 
here. And especially it is so wonderful for being here with Ike 
Skelton, who is always the corporate history of this committee 
and largely of our military history of this last--the last 100 
years or so. Ike Skelton could always apply a lesson that was 
learned in history to a present problem, a wonderful gift and 
one that served us well.
    And let me tell you, thank you for letting me get grilled, 
lightly grilled, by that Member of Congress from California, 
Duncan Hunter. And I have got to tell you, I am as proud of him 
as I am my Army son, but it was good to be able to have the 
new, improved Duncan Hunter ask those questions. Thanks a lot.
    Mr. Wittman. Well, we are glad to have him, and I am glad 
to have him as my seatmate. He is carrying on the Hunter 
tradition and legacy here very well, so----
    Mr. Skelton. Thank you very much. It has been a real 
thrill, particularly being with my old friend and compatriot, 
Duncan Hunter. We had a lot of fun together, and actually I 
think we did a few good things. We hope that Congress today can 
meet its challenges, as we had different ones, but we felt we 
met them and provided for as the Constitution requires. Thank 
you for having us. It is good to be back.
    Mr. Wittman. Thank you, Chairman Skelton. We appreciate 
that. Thanks again for the perspective that you bring. Your 
viewpoints on Goldwater-Nichols, the idea of jointness and 
where we can go there to really have a multiplying effect on 
our Force, I think, is very, very important for all of us to 
realize. You know, as you have watched that effort grow, it is 
going to be a critical

    part of our future.
    So, gentlemen, thank you both. We look forward to continued 
conversations with where we go as a Nation. Thank you, and God 
bless you.
    [Whereupon, at 12:24 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            October 12, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 12, 2011

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

              The Future of National Defense and the U.S.

             Military Ten Years After 9/11: Perspectives of

          Former Chairmen of the Committees on Armed Services

                            October 12, 2011

    This hearing is part of our ongoing series to evaluate 
lessons learned since 9/11 and to apply those lessons to 
decisions we will soon be making about the future of our force. 
We have received perspectives of former military leaders from 
each of the Services, as well as outside experts. Today we will 
have the opportunity to view these issues through the lens of 
the leaders of the legislative branch. The individuals with us 
today, in more ways than we can possibly imagine, led the fight 
here on the Hill to ensure our warfighters got what they needed 
to defend this Nation and take care of their families. 
Especially in the months following the attacks of September 
11th, when it became clear that the procurement holiday of the 
1990s had left gaps in our capabilities, that readiness was 
low, and that our force was being stretched too thin, the 
Chairmen of the Armed Services Committees ensured that not only 
Congress, but the Department of Defense and industry, were 
doing their part to make it right for our Armed Forces.
    Unfortunately, our successes in the global war on terror, 
and in Iraq and Afghanistan, are lulling our Nation into the 
false confidence of a September 10th mindset. Too many appear 
to believe that we can maintain a solid defense that is driven 
by budget choices, not strategic ones--that the threats we face 
will be reduced, along with funding for national security.
    I am not arguing that the military can be held exempt from 
fiscal belt-tightening. Indeed, half a trillion dollars has 
been cut from DOD already--the military has absorbed about half 
of the deficit reduction measures enacted to date. But these 
cuts have happened in advance of the development of a new 
strategy for national defense and without any changes to the 
military's roles and missions.
    Even more concerning is that if the Joint Select Committee 
does not succeed in developing and passing another deficit 
reduction plan, an additional half a trillion dollars could be 
cut from our military automatically. It also remains to be seen 
whether or not additional cuts may be proposed by the 
Administration, even if the ``super committee'' is successful.
    But all this talk about dollars doesn't translate well into 
actual impacts on the force and risk to our Nation. I hope our 
witnesses today can help us understand the lessons we learned 
10 years ago and give us recommendations about how we might 
avoid repeating the same mistakes. How can we make sure DOD is 
a good steward of the taxpayers' dollar, without increasing the 
risk to our Armed Forces?
    The U.S. military is the modern era's pillar of American 
strength and values. In these difficult economic times, we 
recognize the struggle to bring fiscal discipline to our 
Nation. But it is imperative that we focus our fiscal restraint 
on the driver of the debt, instead of the protector of our 
prosperity. With that in mind, I look forward to hearing from 
our witnesses today.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

              The Future of National Defense and the U.S.

             Military Ten Years After 9/11: Perspectives of

          Former Chairmen of the Committees on Armed Services

                            October 12, 2011

    I wish to join the chairman, and I am sure, all my 
colleagues here today, in thanking our witnesses for appearing 
here today. Collectively, you served more years than you 
probably want to think about--writing the defense budget and 
overseeing defense spending. I am glad we will continue to 
benefit from that experience here today.
    Our country faces a budget dilemma--we don't collect enough 
revenue to cover our expenditures. Currently, we must borrow 
about 40 cents for every dollar the Federal Government spends. 
This problem must be addressed in two ends--spending will have 
to come down, and we're going to have to generate new revenues.
    Like many, if not most, of our members here, I share the 
view that large, immediate cuts to the defense budget would 
have substantially negative impacts on the ability of the U.S. 
military to carry out its missions. I am also deeply concerned 
about cuts to all non-entitlement spending, which bore the 
brunt of the recent deficit deal. If the ``super committee'' 
fails to reach a deal, then cuts through sequestration will 
only impose deeper and more dangerous cuts to our military and 
non-entitlement spending such as infrastructure, education and 
homeland security.
    I believe that we can rationally evaluate our national 
security strategy, our defense expenditures, and the current 
mission sets we ask the military to undertake and come up with 
a strategy that requires less funding. We on this committee 
like to say that strategy should not be driven by arbitrary 
budget numbers, but by the same token not considering the level 
of available resources when developing a strategy is 
irresponsible. We can, I believe, spend smarter and not just 
more.
    It is also important that we address the revenue side of 
our budget problem. In order to avoid drastic cuts to our 
military and other important programs, revenue streams must be 
enhanced.
    We have to make some serious choices. Our problems must be 
looked at in a comprehensive manner. If we are serious about 
not cutting large amounts of funding from the defense budget, 
something else has to give. Large, immediate, across-the-board 
cuts to the defense budget, which would occur under 
sequestration, would do serious damage to our national 
security. In order to avoid large cuts to the defense budget, 
we're going to have to stop repeating ideological talking 
points and address our budget problems comprehensively, through 
smarter spending and increased revenue.
    Thank you again, Mr. Chairman, for holding this hearing. 
And thank you to our witnesses for appearing here today.

[GRAPHIC] [TIFF OMITTED] T1445.001

[GRAPHIC] [TIFF OMITTED] T1445.002

[GRAPHIC] [TIFF OMITTED] T1445.003

[GRAPHIC] [TIFF OMITTED] T1445.004

[GRAPHIC] [TIFF OMITTED] T1445.005

[GRAPHIC] [TIFF OMITTED] T1445.006

[GRAPHIC] [TIFF OMITTED] T1445.007

[GRAPHIC] [TIFF OMITTED] T1445.008

[GRAPHIC] [TIFF OMITTED] T1445.009

[GRAPHIC] [TIFF OMITTED] T1445.010

[GRAPHIC] [TIFF OMITTED] T1445.011

[GRAPHIC] [TIFF OMITTED] T1445.012

[GRAPHIC] [TIFF OMITTED] T1445.013

[GRAPHIC] [TIFF OMITTED] T1445.014

[GRAPHIC] [TIFF OMITTED] T1445.015

[GRAPHIC] [TIFF OMITTED] T1445.016

[GRAPHIC] [TIFF OMITTED] T1445.017

[GRAPHIC] [TIFF OMITTED] T1445.018

[GRAPHIC] [TIFF OMITTED] T1445.019

[GRAPHIC] [TIFF OMITTED] T1445.020

[GRAPHIC] [TIFF OMITTED] T1445.021

[GRAPHIC] [TIFF OMITTED] T1445.022

[GRAPHIC] [TIFF OMITTED] T1445.023

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
